 VALUATION AND PRESENTATION OF INACTIVE INVENTORY
       ON THE FY 1997DEFENSE LOGISTICS AGENCY
    WORKING CAPITAL FUND FINANCIAL STATEMENTS



Report Number 98-195                       August 27, 1998




             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at WWW.DODIG.OSD.MIL.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Plauning, and Technical Support Directorate
  at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
  can also be mailed to:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

                      Approved Acquisition Objective
E:                    Defense Logistics Agency
GAO                   General Accounting Office
ICP                   Inventory Control Point
IG                    Inspector General
WCF                   Working Capital Fund
                                  INSPECTORGENERAL
                                 DEPARTMENT   OF DEFENSE
                                   400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202




                                                                     August 27, 1998

MEMOmUM            FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
                       DEPUTY UNDER SECRETARY OF DEFENSE
                         (LOGISTICS)
                       DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: Audit Report on Valuation and Presentation of Inactive Inventory on the
         FY 1997 Defense Logistics Agency Working Capital Fund Financial
         Statements (Report No. 98-195)


        We are providing this report for review and comments. This is the third in a series
of reports dealing with the FY 1997 Defense Logistics Agency Working Capital Fund
Financial Statements. In preparing the final report, we considered comments from the
Under Secretary of Defense (Comptroller), the Deputy Under Secretary of Defense
(Logistics), and the Director of the Defense Logistics Agency on the draft of this report.

        DOD Directive 7650.3 requires that all audit recommendations be resolved
promptly. We considered the comments from the Deputy Under Secretary of Defense
(Logistics) and the Under Secretary of Defense (Comptroller) to be nonresponsive;
therefore, we request additional comments on the recommendations by October 26, 1998.

        We appreciate the courtesies extended to the audit staff Questions on the audit
should be directed to Mr. James L. Komides, Audit Program Director, at (614) 75 l-1400,
extension 11, e-mail jkomides@DODIG.OSD.MIL; or Mr. Timothy F. Soltis, Audit
Project Manager, at (614) 751-1400, extension 13, e-mail tsolti      ODIG.OSD.MIL.
See Appendix D for the report distribution. The audit team mem  s?Ders are listed inside the
back cover.




                                           David K. Steensma _
                                    Deputy Assistant Inspector General
                                              For Auditing
                          OfRiceof the Inspector General, DOD
Report No. 98-195                                                         August 27,1998
  (project No. 8FJ-2002.02)

              Valuation and Presentation of Inactive Inventory
                  on the FY 1997 Defense Logistics Agency
                Working Capital Fund Financial Statements

                                 Executive Summary

Introduction. The audit was performed to meet the requirements of Public Law
101-576, the “Chief Financial Officers Act of 1990,” as amended by Public Law
103-356, the “Federal Financial Management Act of 1994.” This is the third in a series
of reports on the FY 1997 Financial Statements of the Defense Logistics Agency (DLA)
Working Capital Fund (WCF). The first report, “Internal Controls and Compliance with
Laws and Regulations for the FY 1997 Financial Statements of the DLA WCF” (Report
No. 98-148), was our disclaimer of opinion on the financial statements and our evaluation
of management’s internal control program and compliance with applicable laws and
regulations. The second report, “Audit of Military Department Materiel Returns to the
DLA Distribution Depots” (Report No. 98-179), dealt with unauthorized returns of
materiel from Military Department field organizations to the DLA distribution depots.
See Appendix B for a summary of prior audit coverage.

The DLA Working Capital Fund finances six business areas whose primary function is to
provide logistics support to DoD and other authorized customers. Inventory is the largest
asset account on the financial statements. Inventory, Net, was reported at $9.8 billion
(82 percent of total assets) on the FY 1997 Consolidated Statement of Financial Position
of the DLA Working Capital Fund. The $9.8 billion included $3.1 billion of inactive
inventory (32 percent of the total inventory). Inactive inventory consists of stock retained
for economic or contingency reasons and for potential reutilization and disposal.

The General Accounting Office reported that DoD management of secondary inventory
was a high-risk area in FY 1997 and previous fiscal years. One of the primary
management deficiencies was that the DOD Components (the Military Departments and
DLA) maintained high levels of unneeded inventory. The General Accounting Office
concluded that all inactive inventories were unneeded because they exceeded the stock
levels that DOD established for war reserves and current operations.

Audit Objectives. The overall objective of our audit was to determine whether the
FY 1997 Financial Statements of the DLA Working Capital Fund were presented fairly
and in accordance with Office of Management and Budget Bulletin No. 94-01, “Form
and Content of Agency Financial Statements,” November 16, 1993, as modified by
Office of Management and Budget Bulletin No. 97-01, “Form and Content of Agency
Financial Statements, n October 16, 1996. For this part of the audit, we reviewed the
valuation and presentation of inactive inventory in the financial statements. We did not
review the internal control program as it related to the audit objective because it was
addressed in our report on internal controls and compliance with laws and regulations.
See Appendix A for a complete discussion of the scope and methodology and
Appendix B for a summary of prior coverage.
Audit Results. DLA followed DOD accounting policy for valuing inactive inventory.
However, the DOD policy was not adequate to ensure that the value of stocks retained for
economic and contingency reasons, as reported on the DLA Working Capital Fund
financial statements, reflected their uncertain future utility (revenue-producing ability). As
a result, the $9.8 billion reported on the financial statements as Inventory, Net, was
overstated by as much as $3 biion, and related inventory expense accounts were
understated by the same amount (Finding A).

Inactive inventory was not correctly presented and disclosed in the financial statements of
the DLA Working Capital Fund. As a result, the financial statements did not provide
complete and accurate data on two categories of the Inventory, Net, account: Inventory
Held for Current Sale and Excess, Obsolete, and Unserviceable Inventory (Finding B).

The recommendations in this report, if implemented, will improve the reliability and
usefulness of the financial statements. See Part I for a discussion of the audit results.

Summary of Recommendations. We recommended that the Deputy Under Secretary of
Defense (Logistics) evaluate the methodology used to compute the net realiible value of
stock and determine the appropriate rate for valuing stocks retained for economic and
contingency reasons. We recommended that the Under Secretary of Defense
(Comptroller) amend the DOD accounting policy to require that stocks retained by the
DOD Components for economic and contingency reasons be shown on the financial
statements as Excess, Obsolete, and Unserviceable Inventory and valued at their net
realizable value. We recommended that the Director, DLA, present all inactive inventory
as Excess, Obsolete, and Unserviceable Inventory on the DLA Financial Statements, and
disclose how DLA identified and valued those stocks.

Management Comments. The Deputy Under Secretary of Defense (Logistics) disagreed
and stated that calculated probabilities show that the stock will be sold in the future. The
Office of the Under Secretary of Defense (Comptroller) also disagreed and stated that the
existing DOD accounting policy is consistent with Statement of Federal Financial
Accounting Standards No. 3. The Defense Logistics Agency agreed to comply with DOD
accounting policies regarding the valuation and presentation of retention stocks on the
financial statements. See Part I for a discussion of management comments and
Part III for the complete text of management comments.

Audit Response. We disagree with the responses from the Deputy Under Secretary of
Defense (Logistics) and the office of Under Secretary of Defense (Comptroller). See Part
I for our detailed audit response to their comments. We re uest that the Deputy Under
Secretary of Defense (Logistics) and the Under Secretary oP Defense (Comptroller)
reconsider their position and provide comments to include studies showing the probability
that retention stocks will be sold within the 6-year retention period. Comments are
requested by October 26, 1998.




                                                ii
Table of Contents
Executive Summary                                                             i

Part I - Audit Results
      Audit Background                                                       2
      Audit Objectives                                                       3
      Finding A. Valuation of Inactive Inventory Retained for Economic and
        Contingency Reasons                                                  4
      Finding B. Presentation of Inactive Inventory                          10

Part II - Additional Information
      Appendix A. Audit Process
        scope
        Methodology
      Appendix B. Summary of Prior Coverage
      Appendix C. Report Distribution


Part III - Management      Comments

      Office of the Under Secretary of Defense (Comptroller) Comments        22
      Office of the Deputy Under Secretary of Defense (Logistics) Comments   23
      Defense Logistics Agency Comments                                      24
Part I - Audit Results
Audit Background

       Introduction. The audit was performed as part of our effort to meet the
       requirements of Public Law 101-576, the “Chief Financial Officers Act of 1990,”
       November 151990, as amended by Public Law 103-356, the “Federal Financial
       Management Act of 1994,” October 13,1994. This is one of a series of reports
       on the financial statements of the Defense Logistics Agency @LA) Working
       Capital Fund (WCF). The first report, “Internal Controls and Compliance with
       Laws and Regulations for the FY 1997 Financial Statements of the DLA WCF”
       (Report No. 98- 148), was our disclaimer of opinion on the FY 1997 Financial
       Statements of the DLA WCF. The second report, “Military Department Materiel
       Returns to the DLA Distribution Depots” (Report No. 98- 179), discussed
       unauthorized returns of materiel from Military Department field organizations to
       the DLA distribution depots, We also issued a report on internal controls and
       compliance with laws and regulations.

        DLA Working Capital Fund. The DLA WCF finances six business areas’
        whose primary function is to provide logistics support to DOD and other
        authorized customers. Inventory is the largest asset account on the financial
        statements of the DLA WCF. Inventory, Net, was reported at $9.8 billion
        (82 percent of total assets) on the FY 1997 Consolidated Statement of Financial
        Position of the DLA WCF. The $9.8 billion represented the value of Inventory
        after adjustments for unserviceable and potential reutilization and disposal stock.
        Two business areas, Supply Management and Reutilization and Marketing,
        determine the value of inventory.

                 Supply Management. This business area consists of five DLA Inventory
        Control Points (ICPs) that buy consumable materiel and position it at storage
        locations, issue materiel to customers, and identify and dispose of the excess. To
        categorize the inventory managed by the ICPs, DLA uses a stratification process
        that applies the quantity of each item against its requirements in a prescribed
        priority and time sequence. Depending on the category, items are valued at latest
        acquisition price (using contract prices maintained in logistics records at the ICPs)
        or net realizable value (using rates established by the Principal Deputy Under
        Secretary of Defense for Logistics).

                 Reutilization and Marketing. This business area consists of about 150
        Defense Reutilization and Marketing Offices that sell, reutilize, transfer, donate,
        or otherwise dispose of excess DOD property. Based on sales data from the
        Defense Reutilization and Marketing Service, the Offtce of the Principal Deputy
        Under Secretary of Defense (Logistics) computes the percentage used to reduce
        the value of DOD inventory from its latest acquisition cost to net realizable value.
        In FY 1997, the rate for net realizable value was established at 2.7 percent of
        latest acquisition cost.

        Composition of DLA Inventory. DLA categorized its FY 1997 year-end
        inventory as active and inactive inventory.



‘The six DLA business arm are: Supply Management, Distribution Depots, Reutilization and Marketing,
Industrial Plant Equipment, Information Services, and the Defense Automated Printing Service.

                                                  2
            Active Inventory. The active inventory consists of materiel that is
    expected to be consumed within a 2-year period (the DOD budget cycle) and
    includes stock levels that fall within the Approved Acquisition Objective (AAO)
    for DOD. The AA0 represents the inventory needed to equip and sustain U.S. and
    allied forces in accordance with current DOD policies and plans. The AA0
    includes stock levels to cover war reserves and minimum quantities for designated
    items. The AA0 also includes outstanding back orders, demands expected after
    the date that a need for an item is identified and before the item is received, and
    minor interruptions in tbe supply process or unpredictable fluctuations in demand.
    At the end of FY 1997, DLA records showed $6.7 billion of active inventory.

             Inactive Inventory. Inactive inventory is materiel that is not expected to
    be consumed within the 2-year budget period. It includes inventory retained for
    economic and contingency reasons and for tential reutilization and disposal. At
    the end of FY 1997, DLA records showed G).9 billion of inactive inventory at
    latest acquisition value. The value of inactive inventory included in the financial
    statements was $3.1 billion, which reflected the latest acquisition cost of stock
    retained for economic and contingency reasons and the net realizable value of
    potential reutilization and disposal stock.

     Economic retention stock is inventory that exceeds the AAO, but for which the
     ICP has determined that it is more economical to retain the items for future use
     than to dispose of them.

     Contingency retention stock is inventory that exceeds the level of stock retained
     for economic reasons and for which there is no predictable demand or quantifiable
     requirement. This stock is retained for contingency purposes.

     Potential reutilization and disposal stock is inventory that exceeds the levels of
     stock retained for economic and contingency reasons. The ICPs have determined
     that items in this category are not needed. These items will probably be disposed
     of through the Defense Reutilization and Marketing Service.


Audit Objectives
     The overall objective of our audit was to determine whether the FY 1997
     Financial Statements of the DLA WCF were presented fairly and in accordance
     with Office of Management and Budget Bulletin No. 94-01, “Form and Content
     of Agency Financial Statements,” November 16, 1993, as modified by Office of
     Management and Budget Bulletin No. 97-01, “Form and Content of Agency
     Financial Statements,” October 16, 19%. For this part of the audit, we reviewed
     the valuation and presentation of inactive inventory in the financial statements.
     We did not review the internal control program as it related to the audit objective
     because it was addressed in our report on internal controls and compliance with
     laws and regulations. See Appendix A for a complete discussion of the scope and
     methodology and Appendix B for a summary of prior audit coverage.




                                           3
            Finding A. Valuation of Inactive
            Inventory Retained for Economic and
            Contingency Reasons
            DLA followed DOD accounting policy for valuing inactive inventory.
            However, the DOD policy was not adequate to ensure that the value of
            stocks retained for economic and contingency reasons, as reported on the
            DLA WCF financial statements, reflected the uncertain future utility of
            those stocks. As a result, the $9.8 billion reported on the financial
            statements as Inventory, Net, was overstated by as much as $3 billion, and
            related inventory expense accounts were understated by the same amount.


Policy for Valuation of Inventory
     Federal Government Accounting Poiicy. Statement of Federal Financial
     Accounting Standards No. 3, “Accounting for Inventory and Related Property,”
     was issued by the Federal Accounting Standards Advisory Board on
     October 27, 1993. Accounting Standard No. 3 established the policy on inventory
     valuation for Federal Government entities, stating that inventory should be valued
     at latest acquisition cost or historical cost, except for Excess, Obsolete, and
     Unserviceable Inventory, which should be valued at its net realizable value.
     Accounting Standard No. 3 defines excess inventory as inventory that exceeds
     demands expected to occur during the normal course of operations. The
     difference between the latest acquisition cost of the excess inventory and its net
     realizable value shall be recognized as a loss in the period in which the value is
     reduced.

     DOD Accounting Policy. DOD Regulation 7000.14-R (the Regulation), the “DOD
     Financial Management Regulation,” volume 1lB, chapter 55, December 1994,
     establishes the accounting policy that DOD Components are to use in reporting
     inventory balances on their financial statements. The Regulation states that active
     inventory reported on the financial statements should be valued at its latest
     acquisition cost, applying the last representative price to all like items. Also,
     inactive inventory retained for economic and contingency reasons should be
     presented as Inventory Held for Future Sale and valued at its latest acquisition
     cost. The Regulation also requires that inactive inventory categorized as potential
     reutilization and disposal stock be shown on the financial statements as Excess,
     Obsolete, and Unserviceable Inventory and valued at its net realizable value.
     Based on sales data from the Defense Reutilization and Marketing Service, the
     Office of the Principal Deputy Under Secretary of Defense (Logistics) annually
     computes the rate used to determine net realizable value.




                                          4
                                         Finding A. Valuation of Inactive Inventory



Inactive Inventory
     DLA prepared summary reports showing that as of September 3 0,1997, the
     inactive portion of its WCF inventory was valued at $4.9 billion, the latest
     acquisition cost. The inactive inventory consisted of $2.9 billion of stock retained
     for economic reasons, $. 16 billion retained for contingencies, and $1.8 billion
     retained for potential reutilization or disposal.

     Purchasing Inactive Stock DLA did not intentionally purchase the $4.9 billion
     of inactive inventory. DOD Regulation 4140. l-R, the “ DoD Materiel
     Management Regulation,” January 1993, generally prohibits DOD Components
     (the Military Departments and DLA) from purchasing materiel that exceeds the
     AAO, which represents supplies that should be adequate for the next 2 years. The
     inactive inventory was accumulated when anticipated requirements did not occur
     because of reductions in the force structure and other factors. In addition, some of
     the inactive DLA inventory was accumulated as a result of the Consumable Item
     Transfer Program, which was established in July 1990 to transfer the management
     of consumable items from the Military Departments to DLA.

     Retaining Inactive Stock. DOD policy allows some inactive inventory to be
     retained for economic or contingency reasons. DoD Regulation 4 140.1-R allows
     the DOD Components to establish their own retention levels. DLA, which has a
     6-year economic retention period, has determined that it is more economical to
     retain items that are expected to be consumed within 6 years (the 2-year AA0
     plus an additional 4 years) than to dispose of these items. Materiel may be
     retained beyond the 6-year period if the ICP determines that a need exists to meet
     a specific contingency.


Adequacy of DOD Accounting Policy
     DLA complied with DoD accounting policy by valuing the $3.1 billion of
     retention stocks ($2.9 billion retained for economic reasons and $. 16 billion for
     contingencies) at their latest acquisition cost. DLA also complied with DOD
     policy by valuing the $1.8 billion of stock retained for potential reutilization and
     disposal at its net realizable value.

     DOD accounting policy is adequate for valuing the portion of inactive inventory
     categorized as reutilization and disposal stock. However, the policy is not
     adequate for valuing the portion of inactive inventory that is retained for
     economic and contingency reasons. To justify valuing inventory retained for
     economic and contingency reasons at latest acquisition cost, DLA would have to
     show that the items are as likely to be sold as active inventory.




                                            5
Finding A. Valuation of Inactive Inventory

Valuation of Economic and Contingency Stock
      DODpolicy for stock retained for economic and contingency reasons, which
      allowed inventory to be valued at its latest acquisition cost, did not reflect the
      uncertainty of its future utility. Specifically, stocks retained for economic and
      contingency reasons are not expected to be consumed during the normal course of
      operations; therefore, they represent excess materiel as defined by Accounting
      Standard No. 3.

      Normal Course of Operations. Accounting Standard No. 3 defines excess
      inventory as inventory that exceeds demands expected to occur during the normal
      course of operations. For the DLA WCF, the normal course of operations is the
      2-year budget period. Generally, DOD Components should purchase only stock
      that falls within the Approved Acquisition Objective (AAO), which covers the
      2-year budget period. Also, DOD has consistently defined “required inventory”
      as inventory that is projected to be used through the end of the budget year, and
      has used the same definition for both the budgeting and reporting of inventory.

      The active portion of inventory represents a current asset on the Statement of
      Financial Position because that inventory is expected to result in a cash inflow to
      the ICP (through sales of materiel) within the normal operating or budget period.
      DLA also uses its active inventory to reduce future budget requests. Inactive
      inventory does not generally result in a cash flow to the ICP within the 2-year
      budget period and does not reduce future budget requests.

      Excess Inventory. Although DODpolicy allows DLA to retain stock for
      economic and contingency reasons, the materiel in those categories exceeds the
      stock level needed for the 2-year budget period.

      The General Accounting Office (GAO) identified DOD management of secondary
      inventory as a high-risk area in FY 1997 and previous fiscal years. One reason
      was that DOD Components maintained high levels of unneeded inventory.
      According to GAO, about 50 percent of all DOD WCF inventory was not needed
      to satisfy current and war reserve requirements (the AAO). GAO classified all
      inactive inventory as unneeded. The GAO reports did not address the valuation of
      inactive inventory. However, for unneeded materiel, the most appropriate
      category in Accounting Standard No. 3 would be Excess, Obsolete, and
      Unserviceable Inventory.

      In response to concerns about retaining large amounts of excess materiel, DOD set
      a goal of reducing inventory levels from $69 billion in FY 1996 to $52 billion by
      FY 2001. The projected reduction of $17 billion equals the total value of inactive
      inventory in FY 1996.

      DLA established several programs at its ICPs and distribution depots to monitor
      and reduce inactive inventory levels and eliminate the associated costs of
      retaining inventory. Item managers at the ICPs must review items held for long
      periods and determine whether they should be disposed of. The Defense Inactive
      Item Program targets items that have not been requested in 5 years.




                                            6
                                          Finding   A. Valuation of Inactive Inventory

     The Space Hog program requires the distribution depots to notify the ICPs of
     items that occupy significant storage space and have not been moved in 2 years.
     The necessity of these programs is further evidence of the uncertain future utility
     of inactive inventory.


Impact on the Financial Statements
     Determining Net Realizable Value. Based on sales data from the Defense
     Reutilization and Marketing Service, the Office of the Principal Deputy Under
     Secretary of Defense (Logistics) determined that 2.7 percent of the latest
     Acquisition cost should be the net realizable value. All DOD Components were to
     use the 2.7 percent rate in preparing their FY 1997 financial statements.

     The method of computing the net realizable value was established in
     October 1991, when DoD modified its procedures for preparing the Supply
     System Inventory Report. The method used to compute the net realizable value
     for the Supply System Inventory Report was incorporated into the method used to
     prepare the FY 1992 financial statements.

     The DOD policy was intended for use only in valuing the portion of inactive
     inventory categorized as potential reutilization and disposal stock. It was not
     intended for use in valuing the portion of inactive inventory retained for economic
     and contingency reasons because those items were not destined for reutilization
     and disposal. However, carrying inactive inventory retained for economic and
     contingency reasons at full latest acquisition value is not reasonable. The items
     are not likely to be sold and are closer to potential reutilization and disposal stock
     than active inventory. Therefore, the method of computing net realizable value
     should be reevaluated to determine the most appropriate rate for valuing stocks
     retained for economic and contingency reasons.

     Impact on the DLA WCF. If DLA had used the 2.7 percent rate for the
     $3.1 billion reported as the latest acquisition value of stocks retained for economic
     and contingency reasons, the value of those stocks would have been reduced to
     $83 million. Accounting Standard No. 3 requires that the difference between the
     latest acquisition cost of the inventory and the net realizable value be shown on
     the financial statements as a decrease in Inventory, Net, and an increase in Other
     Expenses. However, because much of the inactive stock accumulated in the past,
     any write-downs of stock retained for economic and contingency reasons should
     be shown as an adjustment to equity, rather than an expense.

     Potential Effect on the Military Department WCF Financial Statements.
     Although we did not review the financial statements of the Military Department
     WCFs during this audit, the FY 1997 DOD Supply System Inventory Report
     indicated that the Military Departments retained about $10.6 billion of stocks for
     economic and contingency reasons. Because the Military Departments valued
     these stocks at latest acquisition cost in the FY 1997 financial statements of the
     WCFs, the value show-n as Inventory, Net, was overstated.




                                            7
Finding A. Valuation of Inactive Inventorv


Recommendations, Management Comments, and Audit
Response

      A.l. We recommend that the Deputy Under Secretary of Defense (Logistics)
      evaluate the method used to compute the net realizable value and determine
      the appropriate rate for the valuation of stocks retained for economic and
      contingency reasons.

      Management Comments. The Deputy Under Secretary of Defense (Logistics)
      did not agree that economic and contingency retention stocks should be valued at
      their net realizable value. The Deputy Under Secretary stated that economic
      retention stock is held based on a formula to balance the risk of paying for holding
      inventory already purchased against the risk of having to repurchase stock once
      disposed. There are calculated probabilities that stock will be sold in the future
      although there may be no present demand. Contingency retention stock is held
      for specific contingencies such as foreign military sales, for which there is a
      probability of future sale. The Deputy Under Secretary further stated that both the
      Inspector General (IG), DOD, and the General Accounting Office are incorrect in
      assessing that retention stock is not needed and therefore is excess.

      Audit Response. We disagree with the response from the Deputy Under
      Secretary of Defense (Logistic). Retention stocks are best represented in the
      financial statements as Excess, Obsolete, and Unserviceable inventory and should
      be valued at net realizable value. DLA did not buy its inactive stock with the
      intent of selling it during the next 2 to 6 years. Rather, the inactive stock
      accumulated because of a lack of demand resulting from force structure reductions
      and other factors. Also, despite DOD initiatives to reduce inventory, the combined
      value of economic and contingency retention stock held by DLA has increased
      from $2.9 billion in FY 1996 to $3.1 billion in FY 1997, giving further evidence
      that the stock lacks the potential for future sales.

      The Deputy Under Secretary should consider the fact that 80 percent of the DLA
      stocks retained for economic and contingency reasons are managed as non-
      demand-based items. DLA categorizes them as Numeric Stockage Objective
      items and defines them as “a class of items deemed to be critical insurance items
      which may exhibit a very limited historical demand or no demand whatsoever but
      because they are considered critical items, a non-demand-based stockage level is
      assigned.” These are not replenishment items with stockage levels that are based
      on mathematical formulas, actual demand, and program data. We have not seen
      any calculated probabilities for non-demand-based items. The DOD Policy for
      retaining insurance items, as outlined in DOD Regulation 4140.1 -R, “The DOD
      Materiel Management Regulation,” January 1993, allows one replacement unit to
      be stocked for insurance purposes.

      The Deputy Under Secretary referred to DOD studies that provide calculated
      probabilities showing that economic retention items will be sold in the future
      (within the 6 year retention period). These studies were not provided to us. In
      addition, the FY 1997 DOD Supply System Inventory Report classified only about
      17 percent of all DOD contingency stock as potential security assistance stock.
      None of the DLA contingency stock was identified as such. We request that the
      Deputy Under Secretary of Defense (Logistics) provide, with his comments to the

                                            8
                                    Finding A. Valuation of Inactive Inventory


final report, studies showing the probability that the retention stocks (including
those categorized as Numeric Stockage Objective) will be sold within the 6-year
retention period.

A.2. We recommend that the Under Secretary of Defense (Comptroller)
amend accounting policy to require that stocks retained by the DOD
Components for economic reason8 and contingencies be shown on the
financial statements a~ Excess, Obsolete, and Unserviceable Inventory and
valued at their net realizable value.

Management      Comments. The Deputy Chief Financial Officer nonconcurred and
stated that the existing DOD policy, which requires that retention stocks be
reported as Inventory Held in Reserve for Future Sale and valued at latest
acquisition cost, is consistent with Accounting Standard No.3.

Audit Response.     The Deputy Chief Financial Officer position was based on the
same premise stated by the De uty Under Secretary of Defense (Logistics), which
is DOD can support the likely r: ture sales of retention stocks. We believe that
DOD cannot support the likely future sales of retention stocks, for the reasons
stated in the audit response to Recommendation A. 1. Additionally, the DOD
accounting policy does not include one of the key requirements of Accounting
Standard No. 3, that the criteria used by management to classify items as
Inventory Held in Reserve for Future Sale must be disclosed in the financial
statements. Factors to consider in developing the criteria include all relevant costs
associated with holding the items (including storage and handling costs), the
expected replacement cost of the items, the time required to replenish inventory,
the potential for deterioration and pilferage, and the likelihood that a supply of the
items will be available in the future.

We request that the Deputy Chief Financial Officer reconsider his position and
provide additional comments on this recommendation.




                                       9
            Finding B. Presentation of Inactive
            Inventory
            Inactive inventory was not correctly presented on the DLA WCF financial
            statements. Specifically, $3.1 billion of stocks retained for economic and
            contingency reasons and $1.8 billion retained for potential reutilization
            and disposal were improperly reported as Inventory Held for Sale. This
            occurred because DLA did not fully comply with the reporting
            requirements of DoD accounting policy. However, as discussed in
            finding A, the DOD policy is not consistent with Accounting Standard
            No. 3 for the reporting of stocks retained for economic and contingency
            reasons. As a result, users of the DLA financial statements did not have
            complete and accurate data on two categories of the Inventory, Net,
            account: Inventory Held for Current Sale and Excess, Obsolete, and
            Unserviceable Inventory.


Policy on Presentation of Inventory
     Federal Government Accounting Policy. Accounting Standard No. 3 requires
     that a separate category be established for Inventory Held in Reserve for Future
     Sale. The standard states, “This category should include on-hand stocks that are
     not readily available in the market or are retained because there is more than a
     remote chance that they will eventually be needed.” Accounting Standard No. 3
     also requires that a separate category be established for Excess, Obsolete, and
     Unserviceable Inventory. This category includes stock that exceeds demands
     expected to occur during the notmal course of operations and does not meet
     management’s criteria for Inventory Held in Reserve for Future Sale.

     The Federal Accounting Standards Advisory Board developed these inventory
     categories to help Congress, agency managers, and other interested parties better
     understand the utility of property and aid them in controlling and identifying
     assets that will result in cash inflows from sales.

     DOD Policy. DOD Regulation 7000.14-R directs the DOD Components to present
     inactive inventory that is retained for economic and contingency reasons as
     Inventory Held in Reserve for Future Sale and to value it at latest acquisition cost.
     DOD Regulation 7000.14-R also requires that inventory retained for potential
     reutilization and disposal be presented as Excess, Obsolete, and Unserviceable
     Inventory and valued at its net realizable value.




                                           10
                                       Finding B. Presentation of Inactive Inventory



Presentation of Inactive Inventory on Financial Statements
     The FY 1997 Financial Statements of the DLA WCF did not correctly present
     inactive inventory.

     Stocks Retained for Economic Reasons and Contingencies. The FY 1997
     Financial Statements of the DLA WCF incorrectly showed $3.1 billion of inactive
     stocks ($2.9 billion of stocks retained for economic reasons and $0.16 billion for
     contingencies) as Inventory Held for Current Sale. To comply with DOD policy,
     the DLA financial statements should have shown the full value of those stocks as
     Inventory Held in Reserve for Future Sale. However, as explained in Finding A,
     the DOD policy is not consistent with Accounting Standard No. 3.

     Accounting Standard No. 3 defines excess inventory as inventory that exceeds
     demands expected to occur during the normal course of operations. Inactive
     inventory retained for economic reasons and contingencies meets this definition of
     excess inventory. In Finding A, we recommended that the Principal Deputy
     Under Secretary of Defense (Logistics) evaluate the method used to compute the
     net realizable value and determine the appropriate rate for the valuation of stocks
     retained for economic and contingency reasons. The results of this evaluation will
     affect the presentation of these stocks on the DLA WCF financial statements.

     Until this evaluation is completed, stocks retained for economic and contingency
     reasons should be reported as Excess, Obsolete, and Unserviceable Inventory and
     valued at the established net realizable value rate (currently 2.7 percent) The
     footnotes should also disclose that the Principal Deputy Under Secretary of
     Defense (Logistics) is evaluating its method of computing the net realizable value
     to determine the appropriate rate for the valuation of stocks retained for economic
     and contingency reasons.

     Potential Reutilization and Disposal Stock. On its financial statements, DLA
     did not present the value of inventory held for potential reutilization and disposal
     in accordance with DOD policy. DoD policy requires that potential reutilization
     and disposal stock must be presented as Excess, Obsolete, and Unserviceable
     Inventory and valued at its net realizable value. The DOD policy complies with
     Accounting Standard No. 3 for the reporting of excess inventory.

     DLA incorrectly showed the $1.8 billion latest acquisition value of potential
     reutilization and disposal stock as Inventory Held for Current Sale, and reduced
     this amount by showing the $1.75 billion reduction (needed to arrive at the net
     realizable value) as Excess, Obsolete, and Unserviceable Inventory. As a result,
     $50 million of net realizable value remained in Inventory Held for Current Sale.
     To comply with DOD policy, DLA should have shown only the $50 million net
     realizable value of the potential reutilization and disposal stock as Excess,
     Obsolete, and Unserviceable Inventory. The footnotes to the category of Excess,
     Obsolete, and Unserviceable Inventory should have shown that the $1.8 billion
     categorized by DLA as potential reutilization and disposal stock was reduced to
     about $50 million using the rate of 2.7 percent of latest acquisition cost
     established b the Principal Deputy Under Secretary of Defense (Logistics).
     Because the 3 1.75 billion reduced the amount of Inventory Held for Current Sale,
     it did not materially misstate the total Inventory, Net, value of $9.8 billion.


                                           11
Finding B. Presentation of Inactive Inventorv


Recommendations and Management Comments

      B. We recommend that the Director, Defense Logistics Agency, present all
         inactive inventory as Excess, Obsolete, and Unserviceable Inventory on
         the financial statements and disclose how the Defense Logistics Agency
         identified and valued the stocks retained for economic and contingency
         reasons and for potential reutilization and disposal.

          Management Comments. The Director, Defense Logistics Agency, agreed
          with the findings that retention and potential excess inventories were
          improperly classified as Inventory Held for Sale. He also agreed that the $50
          million reported as Inventory Held in Reserve for Future Sale should have
          been reported separately as Excess, Obsolete, and Unserviceable Inventory.
          The Director agreed to comply with the reportingand disclosure requirements
          established in Statement of Federal Financial Accounting Standards No. 3, as
          implemented by DOD accounting policy. He also agreed to comply with any
          future changes in the DOD policy pertaining to valuation and presentation of
          retention stocks. The complete text of the DLA response is in Part III.




                                          12
Part II - Additional Information
Appendix A. Audit Process


Scope
    Work Performed.       During this part of our audit of the FY 1997 Financial
    Statements of the DLA WCF, we evaluated the valuation and presentation of
    inactive inventory on the financial statements. We conducted a separate audit on
    inactive inventory because the high level of inactive inventory was a primary
    reason that GAO rated DOD inventory management as a high-risk area. The GAO
    did not address the valuation of inactive inventory or its presentation on the
    financial statements.

    Limitations to Audit Scope. The scope of our audit was limited in that we did
    not determine how much of the $4.9 billion of inactive inventory DLA should
    retain or dispose of. Assessing whether assets are needed is an operational
    concern. Our assessment of the inactive inventory applies only to how it should
    be valued and presented on the financial statements. Additionally, we did not
    evaluate whether the 2.7 percent rate established by the Office of the Principal
    Deputy Under Secretary of Defense (Logistics) was appropriate for use in valuing
    stocks retained for economic and contingency reasons. Our scope was also
    limited because we did not test internal controls.

    Because we did not obtain the final version of the financial statements in a timely
    manner, we were unable to recommend adjustments to the FY 1997 DLA WCF
    financial statements. Therefore, the recommendations in this report should be
    considered in preparing the FY 1998 Financial Statements of the DLA WCF.

        DOD-Wide Corporate Level Government Performance and Results Act
        (GPRA) Goals. In response to the GPRA, the Department of Defense has
        established 6 DOD-wide corporate-level performance objectives and 14 goals for
        meeting these objectives. This report pertains to achievement of the following
        objectives and goals.

               l   Objective:     Fundamentally reengineer DOD and achieve 2 1@century
                   in.liastructure. Goal: Reduce costs while maintaining required
                   military capabilities across all DOD mission areas. (DOD-~)
        DOD Functional Area Reform Goals. Most major DOD functional areas have
        also established performance improvement reform objectives and goals. This
        report pertains to achievement of the following functional area objectives and
        goals:

               l   Financial Management      Functional   Area. Objective:   Reengineer
                   DOD business practices. Goal: Standardize, reduce, clarify, and
                   reissue financial management policies.
        General Accounting      OffIce High-Risk Area. The General Accounting Offlice
        (GAO) has identified several high-risk areas in DOD. This report provides
        coverage of the Defense Financial Management and Defense Inventory
        Management high-risk areas.


                                             14
                                                        ADDendix A. Audit Process



Methodology
    DLA categorized its FY 1997 year-end inventory as $6.7 billion active and
    $4.9 billion inactive. After accounting adjustments were made for unserviceable
    materiel and stocks retained for potential reutilization and disposal, the
    $11.6 billion was devalued to $9.8 billion for reporting on the fulancial
    statements. The $9.8 billion reported as Inventory, Net, included $3.1 billion of
    inactive stock. We reviewed the valuation and presentation of inactive inventory
    on the FY 1997 Financial Statements of the DLA WCF (including the footnotes)
    to determine whether they complied with Federal and DOD policies.

    Use of Computer-Processed       Data. Using the Standard Automated Materiel
    Management System, DLA produced summary reports showing the stratification
    of its inventory as active or inactive. We did not evaluate the stratification
    process, nor did we evaluate the general or application controls over the Standard
    Automated Materiel Management System.

    We reconciled the financial inventory data reported for the period ending
    September 30,1997, with reports showing the stratification of inventory for the
    same period. The difference between the two sets of records was immaterial (less
    than 1 percent).

    Audit Type, Dates, and Standards.     This financial-related audit was conducted
    from October 1997 through March 1998 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DOD.

     Contacts During the Audit. We visited or contacted individuals and
     organizations within DOD. Further details are available on request.




                                         15
Appendix B. Summary of Prior Coverage

   The GAO and the IG, DOD, have issued several reports on inactive inventory.
   These reports are summarized below.

   GAO Report No. RR-97-5, “Defense Inventory Management,” February
   1997. This report was part of a series of GAO reports giving the status of
   improvements in Federal program areas identified as high-risk because of their
   vulnerability to waste, fraud, abuse, and mismanagement. GAO reported that
   DOD had made little overall progress in correcting systemic problems that have
   traditionally resulted in large amounts of unneeded inventory. In addition, DOD
   lacked oversight of its inventory, financial accountability remained weak, and
   inventory requirements were overstated. The report made no recommendations,
   but concluded that in the short term, DOD needed to reduce excess inventory.

   GAO Report No. NSIAD-97-71 (OSD Case No. 1284), “Defense Logistics:
   Much of the Inventory Exceeds Current Needs,n February 1997. This report
   stated that of the $67 billion that DOD reported in FY 1995 as secondary
   inventory, $41.2 billion (over 60 percent) was not needed. About $14.6 billion of
   the unneeded inventory had no projected demand and would probably never be
   used. Of the $26.6 billion with projected demand, inventory valued at $1.1 billion
   represented 100 or more years of supply. GAO defined “ needed inventory” as
   stock required for war reserves and current operating requirements. The report
   made no recommendations, but GAO stressed that DOD had tremendous potential
   for further inventory reductions. DOD generally agreed with the factual data in
   the report, but did not agree with the GAO definition of needed inventory. DOD
   stated that it has consistently defined needed inventory as materiel expected to be
   used by the end of the 2-year budget cycle.

   GAO Report No. NSIAD-9331 (OSD Case No. 9227), “Defense Inventory:
   More Accurate Reporting Categories are Needed,” August 1993. This report
   stated that the $53.5 billion of inventory that DOD reported as its AA0 in
   FY 1991 overstated the level of inventory needed to provide uninterrupted supply.
   The $53.5 billion was overstated by $14.9 billion because it included materiel
   excess to requirements based on reorder point and replenishment formulas, which
   represent the inventory required for a 1.9-year period. GAO recommended that
   DOD report separately the inventory kept on hand to meet the requirements of
   reorder point and replenishment formulas from additional inventory being
   reported within the AAO. DOD nonconcurred with the finding and
   recommendation.

   IG, DOD, Report No. 98-179, “Military Department Materiel Returns to the
   DLA Distribution Depots,” July 13,1998. This report stated that during
   FY 1997,114,057 (about 25 percent) of the 458,52 1 DLA-managed items that
   Military Department field organizations returned to the 21 distribution depots
   were not authorized for return by DLA ICPs. As a result, DLA incurred
   unnecessary processing costs and lost approximately $2.2 million annually
   because it did not bill the Military Departments for unauthorized returns. Also,
   the quality and efficiency of distribution operations were adversely affected. The


                                        16
                                    Appendix B. Summary of Prior Coverage



report recommended that the Director, DLA, identify the Military Department
organizations that are making unauthorized returns to the DLA distribution depots
and provide them with additional guidance on DOD policy for materiel returns.
The report also recommended that the Director, DLA, begin billing the Military
Departments for unauthorized returns. DLA concurred with the recommendations
in the report.

IG, DOD, Report No. 98-148, “Internal Controls and Compliance with Laws
and Regulations for the N 1997 Financial Statements of the DLA WCF,”
June 5,1998. This reportstated that the IG, DOD, was unable to render an
opinion on the FYs 1997 and 1996 Financial Statements of the DLA WCF
because sufficient audit work was not performed and the limited work disclosed
additional scope limitations. DLA did not provide a complete set of financial
statements in sufficient time to perform the audit, therefore, the financial
statements were not considered in attempting to render an opinion. The IG, DOD,
also had difficulty gaining access to financial data in the DLA automated systems.
Additionally, because of significant deficiencies in the accounting systems and
internal controls, the $9.8 billion inventory balance on the FY 1997 financial
statements was not verifiable. The report made no recommendations.

IG, DOD, Report No. 94-070, u Materiel Retention and Disposal Procedures
for Secondary Items,” March 28,1994. This reportstated that wholesale
supply activities did not review and validate major segments of materiel
categorized as inactive inventory. This condition occurred because item managers
established arbitrary review thresholds, automatically disposed of materiel
without review, improperly categorized materiel with the potential for
reutilization and disposal as stocks that should be retained, and limited their
reviews to inactive items. The report recommended that the DOD Components
routinely review all line items that include materiel with the potential for
reutilization and disposal, promptly reclassify materiel that is being retained,
dispose of unneeded materiel, and validate and document the reasons for retaining
materiel for contingencies. DLA generally agreed with the recommendations.




                                     17
Appendix C. Report Distribution


Of&e of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Deputy Under Secretary of Defense (Acquisition Reform)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Columbus Center
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                           18
                                                  Appendix C. Report Distribution




Non-Defense Federal Organizations
Office of Management and Budget
Technical Information Center, General Accounting Office
   National Security and International Affairs Division
   Defense and National Aeronautics and Space Administration Management Issues
   Military Operations and Capabilities Issues

Chairman and ranking minority member of each of the following congressional
committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and
     Criminal Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                         19
Part III - Management Comments
Under Secretary of Defense (Comptroller)
Comments


                    OFFICE    OF THE UNDER          SECRETARY        OF DEFENSE
                                        1looDucNscPcNTIQoF(
                                      WUWINOTON,    DC al-1    100


                                                                                        Ju   101998




     MEMORANDUMFORDRPUTYDIRECT’OR,PlNANCEANDACCOUNTING
                     DIRECTORATR, OFFICE OF THE INSPECTOR GHNERAL

     SUBJECT: Draft Audit Repat on Valuation and Presentation of Inactive Inventory on the
              FY 1997 Defense Logistics Agency Waking Capital Fund Financial Statements
              (Reject No. 8FJ-2002.02)


         This is in respmr to the subject report. Specifiully. this office provides the following
     comments regarding Fimding A and ution               A.2.

           Fiig    A of the subject report asserts that $3.1 billion of stocks retained for economic
     reasons and contingencies should have been qxnted as Excess. Obsolete and Unserviceable
     Inventory. Additionally, the report asamts that although the Defense Logistics Agency complied
     with Dqrtment of Defense (DoD) accounting policy snd valued its $3.1 biicm of stocks
     mtainedfor economic and contingency rems at latest acquisition value, the DoD policy was
     not in compliance with Statement of Federal Financial Accounting Smndards (SFFAS) No. 3.
     “Accounting for Inventory and Related Roperty.”

         Recommendation A.2. of the report mcomme& that the Under Secretary of Defense
     (Comptroller) (USD(C)) amend accounting polity to require that stocks retained by the DOD
     Components for economic reasons and contingencies be shown on the financial statements as
     Excess, Obsolete. and Unserviceable Inventory and valued at their net realizable value.

           The Office of the USD(C) does not concur with the above assertions or recommendation.
     DoD accouoting policy requires that inventory held for economic or contingency reasons be
     classified and report& as Inventory Held for Futun Sale. That policy is consistent with SFFAS
     No. 3, which defuses Inventory Held for Futute Sale as items held “because they are not readily
     available in the market or because there is mom than a remote chance that they will eveotuallylx
     needed.” lbc SFFAS further providesthat Inventory Held for Futum Sale shall be valued using
     the same basis as inventory held for sale in normal operations.

           The point of contact for this matter is Mr. Thomas Short. He may be machcd by e-mail:
     shcrtt@ousdc.osd.mil or at (703) 697-6875 or DSN 227-6875.




                                                       Ikputy Chief Financial Officer

     cc: Comptroller, Defense Logistics Agency
         Director for Accounting, Defense Finance
            and Accounting ServiceJHQ




                                 22
Deputy Under Secretary of Defense (Logistics)
Comments

                    OFFICEOFTHEUNDERSECRETARYOFDEFENSE
                                     3tX80DEFENSE PENTAGON
                                    WASHINGTON,DC x)30 I -3ooo




      MEMORANDUM
               FOR THEDEPUTYDIRECTOR,FINANCEANDACCOUNTING
                   DODMSPECXIRGENERAL

      THROUGH:               DEPUTYDIRECTOR,API, FORCONGRESSIONAL
                                                                ACTIONS
                               ANDREPORTS+!

      SUBIECT:   Draft Audit Reporton the Vahutionand Prcscntatior~
                                                                  of InactiveInventoryon the
                 FY 1997DefenseLagis& AgatcyWorkingCapitalFundFinancialStatement
                 (ProjectNo. 8FJ-2002.02)

            This mponds to yourmanormhnn of May7,1998, on the subjectdra!Iauditreport.
      ThcrcisoncruY3mmendah4drasedtothisofEce.
             Rscomacndrtion1Cl.~~‘WerscommadthttheRimi~DepltyUnder
      secntlry of Ikfmce (L@tics) cvahutctbr methodusedto computethe net rcaliile value
      anddeterminethe appqri& ratefor valuationof stock9retain4 for economicud contingency
      reasons.”
             WCdonOtconClKwiththiS      rccommaxiation.The policy for valuationof inventory
      emanatesf?omthe DODFin&i ManagementRegulation(FMR)VolumeI 1B whichis
      prqared by the USD(Comptroller).The DoDFMR,in turn, is basedon the Statementof
      FederalFinmcial AccountingStanda& Number3. The essenceof the policyis that inventory
      heldfor saleof for futuresale shallbe valuedat lntcstrquisition costlessan allowure for
      inventoryheld for rqir. Invmtory heldas potentialrcutilizationldisposalstoc4cis valuedat its
      net realizablevalue. We do not agreethateconomicretwtion stockor contingencyretention
      stockshouldbe valuedat its net realizablevah~ in the samemanner IS potential
      rcutiii&m&posal stock,nor do WTago thatI third categoryfor valuinginventoryshouldbe
      createdfor rctcntioostocks. Eanomic retentionstockis held basedon a formulato balance the
      riskof plyins for holdinginventoryalreadypurcbascdagainstthe risk forhavingto repurchase
      stockomx disposed. llxrc UCcalculatedprob&ilitiesthat stockwill be sold in the futureeven
      thougbtheremay be no demandat the presentdate. Contingencyretentionstockis held for
      specificcontingencieslike foreignmilitatysalesfor whichthere is a probabilityof fLturcsale.
      BothtbeDoDlnspectorGenaludthcGawnlAccountiagOfficemiacomctwhenthcy
      assul that theu inventoriesarcnot neededand arcthereforeexcess.




                                             23
Defense Logistics Agency Comments




                       8722 JOHNJ. KINUMANROAD.SW2 2223
                          m. B2LvolR. vmGlNu 22ao-8221
                                                          -4.   rr)




          MEh4OUNDUb4 FORASSISTAHTINSPECTOROENEML FOR AUDI’IINO
                           DEPAR-      OF DEFENSE
                                                                      Revised
                                                                      Page 6




                                                                      Revised
                                                                      Page 7




                                24
                                         .


     Defense Logistics Agency Comments




25
Defense Logistics Agency Commenb




          Adloncxecorz    Kati Sawya, POX!3.767-7199
          Rdew&ppmvak     B..~BL~CKMAN,Chi&Fina&dF’olicyutd~
                          -Qoyp
          coordimtlorr:   Annell Willhm,DDM


          DWApprod




                                    26
Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Offlice of the
Assistant Inspector General for Auditing, DoD.

F. Jay Lane
Salvadore D. Guli
James L. Komides
Timothy F. Soltis
Anthony C. Hans
Susanne B. Allen
